No. 20-1241 and 20-7377
IN THE SUPREME COURT OF THE UNITED STATES
MICHAEL PAUL MISELIS, PETITIONER
v.
UNITED STATES OF AMERICA
BENJAMIN DRAKE DALEY, PETITIONER
v.
UNITED STATES OF AMERICA

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the
BRIEF FOR THE UNITED STATES IN OPPOSITION, via email and by first-class mail, postage
prepaid, this 10th day of May, 2021.
[See Attached Service List]

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2218

May 10, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to
mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If that is
acceptable to you, please fax your brief to Charlene Goodwin, Supervisor, Case Management Specialist, Office
of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2218. Thank you for your
consideration of this request.

20-1241
MISELIS, MICHAEL PAUL
USA

GLEN ALLEN
5423 SPRINGLAKE WAY
BALTIMORE , MD 21212
410-802-6453
GLENALLENLAW@GMAIL.COM
RAYMOND CURTIS TARLTON
TARLTON POLK PLLC
PO BOX 1386
RALEIGH, NC 27602
919-948-6464
RTARLTON@TARLTONPOLK.COM

20-7377
DALEY, BENJAMIN DRAKE
USA

GLEN ALLEN
5423 SPRINGLAKE WAY
BALTIMORE , MD 21212
410-802-6453
GLENALLENLAW@GMAIL.COM
LISA M. LORISH
ASSISTANT FEDERAL PUBLIC DEFENDER
401 E. MARKET STREET
SUITE 106
CHARLOTTESVILLE, VA 22902
434-220-3388
LISA_LORISH@FD.ORG

